BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, herebycerti:fythat 1 unbound copy
and 40 bound copies of the foregoing Petition for Writ
of Certiorari in Nicole Hutcheson Ruth Boatner v.
Dallas County, Texas Fernando Reyes, Trenton Smith
Elvin Hayes, Betty Stevens, was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent Next Day and via e-mail service to the following
parties listed below, this 8th day of October, 2021:
Jason G. Schuette
District Attorney's Office for the County of Dallas
5th Floor
411 Elm Street
Administration Building
Dallas, TX 75202
(214) 653-2798
j ason.schuette@dallascounty.org

Counsel for Respondents
Matthew J. Kita
Counsel of Record
3110 Webb Avenue, Suite 150
Dallas, Texas 75205
(214) 699-1863
matt@mattkita.com
Scott H. Palmer
15455 Dallas Parkway, Suite 540
Dallas, Texas 75001
(214) 987-4100
scott@scottpalmerlaw.com

Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
' Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 8, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

